Audit of USAID/Mexico’s Program to Develop
Institutional Capacity to Diagnose, Control and
Monitor Tuberculosis
Audit Report No. 1-523-02-009-P

May 6, 2002




          Regional Inspector General / San Salvador
U.S. Agency for
 International
 Development




 RIG/San Salvador

May 6, 2002

MEMORANDUM
FOR:                USAID/Mexico Director, Paul E. White

FROM:               Acting RIG/San Salvador, Steven H. Bernstein

SUBJECT:            Audit of USAID/Mexico’s Program to Develop Institutional
                    Capacity to Diagnose, Control and Monitor Tuberculosis (Report
                    No. 1-523-02-009-P)

This memorandum is our report on the subject audit.

This report does not contain any recommendations for your action. Your comments
to our draft report have been included, in their entirety, as Appendix II.




                                                                                     1
           I appreciate the cooperation and courtesy extended to my staff during the audit.
Table of
Contents
           Summary of Results                                                                 3

           Background                                                                         3

           Audit Objectives                                                                   4

           Audit Findings

                  Is USAID/Mexico’s program to develop institutional capacity to
                  diagnose, control and monitor tuberculosis on schedule to achieve
                  the planned results?                                                        4

                  Does USAID/Mexico have plans for the use of the equipment
                  purchased for the tuberculosis program?                                     6

           Management Comments and Our Evaluation                                             6

           Appendix I – Scope and Methodology                                                 7

           Appendix II – Management Comments                                                  9




                                                                                                  2
Summary of   As part of its fiscal year 2002 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine whether USAID/Mexico’s program to
             develop institutional capacity to diagnose, control and monitor tuberculosis was on
             schedule to achieve planned results and to determine whether USAID/Mexico has
             plans for the use of the equipment purchased for the tuberculosis program. (See
             page 4.)

             USAID/Mexico’s tuberculosis program was not on schedule to achieve planned
             results as of December 31, 2001 because the Government of Mexico’s Secretariat
             of Health stopped cooperating with USAID/Mexico in April 2001. The
             Secretariat of Health stopped cooperating because it had not been fully and
             effectively informed in advance of the signing of the Tuberculosis Strategic
             Objective Grant Agreement that it would be required to comply with U.S. laws
             and regulations governing procurement and the hiring of personnel. (See pages
             4-6.)

             USAID/Mexico plans to use the equipment purchased for the tuberculosis program
             as originally intended when problems in the implementation of the program are
             resolved. (See page 6.)

             USAID/Mexico did not disagree with the findings in the report, but it stated that
             the Tuberculosis Strategic Objective Grant Agreement was signed with the
             previous Government of Mexico administration and that some of the Mexican
             officials who participated in the negotiations leading to this agreement no longer
             work in the same area. The new administration wanted to review the terms of the
             agreement and had problems understanding the use of Implementation Letters.
             (See pages 6-7.)




Background   Tuberculosis is a significant problem in Mexico, and this has serious implications
             for the United States because of the number of people living along both sides of
             the United States / Mexico border and because of the large volume of border
             crossings. The six Mexican states bordering the United States report
             approximately 20 percent of Mexico’s tuberculosis cases, and these states have
             morbidity and mortality rates higher than the national average.

             The fiscal year 1999 foreign operations appropriations committee report
             supported the establishment of a tuberculosis program in Mexico. In February
             1999 the Governments of Mexico and the United States entered into a
             Memorandum of Understanding (MOU) on Cooperation in Prevention and
             Control of Tuberculosis. This MOU was followed by a Tuberculosis Strategic



                                                                                                   3
             Objective Grant Agreement (SOAG) signed with the Secretariat of Health (SSA)
             on August 21, 2000. Under the SOAG, USAID agreed to contribute up to $16
             million, and the Government of Mexico agreed to contribute a minimum of $6
             million to the strategic objective of developing a sustainable and effective
             institutional capacity to diagnose, control and monitor tuberculosis in target areas.
             The completion date was September 30, 2004.

             USAID/Mexico obligated $3,720,803 under the SOAG in August 2000.
             USAID/Mexico records show that as of December 31, 2001, $390,200 had been
             committed, and $228,007 had been expended.



Audit        As part of its fiscal year 2002 audit plan, the Regional Inspector General/San
Objectives   Salvador performed the audit to answer the following questions:

             •   Is USAID/Mexico’s program to develop institutional capacity to diagnose,
                 control and monitor tuberculosis on schedule to achieve the planned results?

             •   Does USAID/Mexico have plans for the use of the equipment purchased for
                 the tuberculosis program?

             The audit scope was limited to the tuberculosis program results as of December 31,
             2001. See Appendix I for a more detailed audit scope and methodology.



Audit        Is USAID/Mexico’s program to develop institutional capacity to diagnose,
Findings     control and monitor tuberculosis on schedule to achieve the planned results?

             USAID/Mexico’s tuberculosis program is not on schedule to achieve the planned
             results. The Secretariat of Health (SSA) ceased cooperating with USAID/Mexico
             in April 2001, eight months after the signing of the Tuberculosis Strategic
             Objective Grant Agreement (SOAG), and the USAID/Mexico program has
             therefore not been implemented. The SSA stopped cooperating, during the
             assessment of the SSA’s procurement system and related financial management
             procedures and internal controls, because the SSA became frustrated with the
             USAID procurement and hiring processes. At the time the SOAG was signed, the
             SSA was not aware that U.S. laws and regulations governing purchasing and
             hiring would be applicable to it under the SOAG; otherwise, it would not have
             entered into the SOAG.

             USAID/Mexico does not have results data for 2001 on the tuberculosis program
             indicators because of the SSA’s lack of cooperation after March 2001. The most
             recent data available were provided by the SSA in March 2001 for the period



                                                                                                  4
January to September 2000, and were only for the four indicators included in the
mission’s Results Review and Resource Request report. The SSA has not
provided any data for the other six indicators.

This was the first SOAG ever entered into with the Government of Mexico. As
such, growing pains were inevitable in the learning process. These growing pains
were exacerbated, however, when USAID/Mexico did not fully explain to the
SSA, prior to the signing of the SOAG, all the U.S. legal requirements that would
be applicable to the SSA under the SOAG. Before the SOAG was signed,
funding, cost reimbursement, and cost-sharing were discussed in general, and the
SSA was provided a copy of a chapter, translated into Spanish, from USAID’s
Automated Directives System. The mission intended to provide more detail with
project implementation letters.

The lack of full and effective communication with the SSA regarding U.S. legal
requirements created problems with the SSA because it did not understand the
process that would be followed with program implementation letters. The SSA
did not realize that the program implementation letters would detail legal
requirements that were not set forth in the SOAG. Consequently, the SSA
stopped cooperating with USAID/Mexico on the tuberculosis program, including
refusing to accept equipment purchased for the SSA under the tuberculosis
program, until such time as the SSA’s concerns are resolved.

USAID/Mexico has been working to address the concerns of the SSA since July
2001 by negotiating an amendment to the SOAG. Most of the issues raised by the
SSA have been resolved, and USAID/Mexico anticipates that the remaining
issues will be resolved in the near future. Under the amendment to the SOAG,
USAID will not be providing funds to the SSA. Instead, USAID and/or USAID
contractors will purchase equipment which will be given to the SSA, and
personnel to manage the program will be hired by USAID or through a non-
governmental organization contracted by USAID. The performance monitoring
plan will be amended to revise target dates.

A recommendation is not being made at this time because USAID/Mexico and the
SSA are close to resolving the problems, but these findings highlight the need for
effective communications with host governments, especially when the host
government has not previously entered into an agreement with USAID.

As the USAID/Mexico Mission Director commented, part of the problem is
attributable to the fact that the mission in Mexico itself was not familiar with how
a SOAG worked, and the mission was learning how a SOAG worked at the same
time that it was explaining the process to the SSA. A lesson learned for future
situations is for USAID/Mexico to work closely with missions that have
experience with SOAGs in order to better understand all the ramifications of such




                                                                                   5
               an agreement and to be better able to explain these ramifications to the host
               country.

               Does USAID/Mexico have plans for the use of the equipment purchased for
               the tuberculosis program?

               USAID/Mexico purchased lab equipment worth $222,685 and computer
               equipment worth $46,284 for use by the SSA in its tuberculosis program, but the
               SSA has refused to accept delivery of the equipment from USAID/Mexico until
               the problems between the SSA and USAID/Mexico are resolved. The computers,
               printers, microscopes and safety hoods in storage in Mexico City were inspected
               by the auditors, and they were in good condition and appeared to be operable.
               The vacuum sterilizer and coagulator analyzer in storage in Laredo, Texas, were
               not inspected.

               Due to the delay in implementation of the tuberculosis program, the Government
               of Mexico’s laboratories that were intended to benefit from the program have not
               received badly needed equipment and training for diagnosing, treating and
               tracking treatment of tuberculosis. When the problems with the SSA are resolved,
               USAID/Mexico plans to deliver the equipment to the SSA as originally
               contemplated. The SSA stated that it could still use the equipment.



Management     USAID/Mexico noted that the Tuberculosis Strategic Objective Grant Agreement
Comments and   was signed with the previous Government of Mexico administration and that
Our            some of the Mexican officials who participated in the negotiations leading to this
Evaluation     agreement no longer work in the same area. This led to the new administration
               wanting to review the terms of the agreement and problems in understanding the
               use of Implementation Letters.

               USAID/Mexico stated that the new agreement being negotiated will spell out
               requirements in order to limit the use of Implementation Letters. Additionally,
               under the new agreement, USAID will be in charge of all procurement and
               contracting of personnel.

               Documentation obtained during the audit, however, reveals that, although the
               change in administration in Mexico may have contributed to the problems that
               arose in the program, two key people involved in the implementation of the
               original agreement remained in the same positions. The incidences that led to the
               current situation involved these two people, one of whom RIG/San Salvador
               interviewed and who conveyed her displeasure with all the additional
               requirements that were made known to her after the signing of the original
               agreement.




                                                                                                   6
                                                                                      Appendix I




Scope and     Scope
Methodology
              We audited USAID/Mexico’s tuberculosis program in accordance with generally
              accepted government auditing standards, and we conducted the audit at
              USAID/Mexico from February 11, 2002 through February 22, 2002. Additionally,
              we interviewed officials from the Secretariat of Health at their offices in Mexico
              City.

              The audit covered USAID/Mexico’s tuberculosis program under the Tuberculosis
              Strategic Objective Grant Agreement (SOAG) from August 21, 2000, through
              December 31, 2001. The SOAG obligated $3,720,803, and the mission reported
              $390,200 in commitments as of December 31, 2001, including $260,298 for the
              purchase of equipment. The disbursements were not audited. Equipment costing
              $143,894 was inspected, and original documentation was reviewed for the two
              pieces of equipment stored in a warehouse in Laredo, Texas.

              We assessed risk exposure and the effectiveness of USAID/Mexico’s
              management controls for assuring that program activities were on schedule to
              achieve planned outputs and results. We interviewed officials at USAID/Mexico
              and the Government of Mexico’s Secretariat of Health and reviewed
              USAID/Mexico’s files regarding this program. We reviewed the following
              management controls: (1) monitoring of program outputs and results through the
              mission’s performance monitoring plan, the first year workplan and the March 2001
              Results Review and Resource Request (R4) report, (2) USAID/Mexico’s
              October 19, 2001 self-assessment of its adherence with the Federal Managers’
              Financial Integrity Act of 1982, (3) the mission’s monitoring of indicator data for
              compliance with the ADS, and (4) policies and procedures for the purchase, receipt,
              and storage of equipment.

              Methodology

              To answer the audit objective, we interviewed program officials at
              USAID/Mexico and the Secretariat of Health. In addition, we reviewed and
              analyzed program documents and program results reported in the mission’s R4
              report in 2001.

              To determine whether the tuberculosis program was on schedule to achieve
              planned results, we reviewed the following program documentation: the
              mission’s FY 1999 - FY 2004 Country Strategy for USAID in Mexico:
              Tuberculosis Strategy; the Tuberculosis Strategic Objective Grant Agreement
              Number 523-4018 with the Government of Mexico; the Performance Monitoring
              Plan; the first year workplan; all project implementation letters; the mission’s R4



                                                                                                    7
                                                                     Appendix I

report submitted in 2001; and all correspondence with the Secretariat of Health.
Due to the lack of current data on indicator results, we interviewed
USAID/Mexico officials to determine if the program was on schedule to achieve
planned results. We performed an audit step designed to determine if
USAID/Mexico had achieved its planned outputs in 2001 as identified in the first
year workplan. We did not perform site visits.

To determine if USAID/Mexico has plans for the use of equipment purchased for
the tuberculosis program, we inspected the equipment at the warehouse in Mexico
City to verify that it was in USAID/Mexico’s possession. A selection of boxes
was made by the auditors, and the boxes were opened to verify that the equipment
was in the boxes and was in good condition. The selection was based upon
auditor determination that all the boxes appeared in good condition. One safety
hood was opened; every fifth printer, computer, uninterrupted power source and
compact disk kit was opened; and every eighth microscope was opened. For
equipment at the warehouse in Laredo, Texas, we reviewed the original
warehouse receipt and interviewed the contracting specialist at USAID/Mexico.
We interviewed program officials at USAID/Mexico to determine if the mission
has plans for the use of the equipment, and we interviewed officials at the
Secretariat of Health to determine if it could still use the equipment.




                                                                                   8
                                                                                     Appendix II




Management
Comments

                                                                                   April 22, 2002

         MEMORANDUM
         FOR:          RIG/San Salvador, Timothy E. Cox

         FROM:         USAID/ (A) Mexico Director, Janet Paz- Castillo

         SUBJECT:      Comments on draft Audit Report of USAID/Mexico-Financed Program to
                       Develop Institutional Capacity to Diagnose, Control and Monitor
                       Tuberculosis

         Regarding the “Audit Findings Section” of the subject report, we would like to add the
         following information in order to address more accurately the information provided in it,
         as follows:

         The Ministry of Health (SSA) of the Government of Mexico and USAID signed an
         Agreement in 2000. This was signed under the previous Administration. Negotiations of
         the Agreement with Mexico were carried out in a joint collaboration between the
         International Health Affairs Department and the Epidemiological Surveillance Center.
         Some of the Mexican Officials that participated during those negotiations are no longer
         working in those areas. The described situation caused: a) that incoming new
         Administration wanted to review the Agreement, and b) problems in understanding
         Implementation Letters. The SSA believes that Implementation Letters are developed to
         amend the terms of the agreement, increase the workload, and impose new regulations to
         disburse funds to Mexico.

         Regarding the Implementation Letters, it was agreed that no Implementation Letter would
         be issued without Mexico’s feedback.. The new Agreement that is in its final negotiation
         stages, will spell out the requirements, including the performance indicators in order to
         limit the use of Implementation Letters. Also, if any parts of the Agreement need to be
         amended, the SSA and USAID will negotiate those changes.

         Also, under the terms of the revised Agreement, USAID will be in charge of all
         procurement and contracting of personnel actions that are required to implement the
         project.

         Other than the above, we do not have additional comments to include in the mentioned
         report.



                                                                                                 9
